10/30/02             WED 09:58 FAX 423 241 3897               OIG                            +-+ HQ
                                                                                            -.-                      ]002




rFG(07-;1)


United States Government                                                    Department of Energy

Memorandum
             DATE:   October 29,   2002

      REPLY    TO    1G-36 (A02DN028)                                  Audit Report No.: OAS-L-03-01
      ATTN OF;


      SUBJECT:       Audit of Procurement at the Rocky Flats Environmental Technology Site
               TO:   Eugene Schmitt, Manager, Rocky Flats Field Office '


                     INTRODUCTION AND OBJECTIVE

                     The Department of Energy (Department) and its site contractor, Kaiser-Hill Company,
                     LLC (Kaiser-Hill), contracted in January 2000 to close the Rocky Flats Environmental
                     Technology Site (Rocky Flats) by a target date of December'15, 2006. As of May 2002,
                     Kaiser-Hill had awarded 784 procurements worth more than $25,000 each, with a total
                     value of about $368.6 million, to support the complex activities required for site closure.

                      In order to promote competition, Federal Acquisition Regulations require Government
                      contractors to procure goods and services on a competitive basis to the maximum practical
                      extent consistent with the objectives and requirements of the procurements. Accordingly,
                      Kaiser-Hill established policy requiring that procurements exceeding $25,000 be awarded
                      on a competitive basis to the maximum extent practicable.

                      The objective of this audit was to determine whether Kaiser-Hill has maximized the use of
                      competition in procuring goods and services on the Department's behalf.

                      CONCLUSIONS AND QBSERVATIONS

                      As of August 9, 2002, about 67 percent of Kaiser Hill's active procurements were
                      competitively awarded.. However, of the 52 procurements we reviewed, 21 with a total.
                      value of about $47 million were not competed to the maximum extent practicable.
                      Specifically, 17 were awarded on a sole-source basis even though other vendors were
                      capable of performing the work, and 4 were awarded competitively, but with restricted
                      competition. The following are examples.

                              A subcontract for internal security, with a current value of about $7.6 million, was
                              awarded to the incumbent subcontractor on a sole-source basis without requesting
                              bids from other contractors. The justification for the sole-source procurement
                              stated that the use of competition would significantly impact Rocky Flats' closure
                              programs and projects because the incumbent subcontractor had extensive


                                                              1
10/30/02_   WED 09:58 FAX 423 241 3897                 OIG                           -*-*   HQ             []003




                    knowledge of the Department's security programs and regulations. However, the
                                                                                           in the file
                    justification did not include support for the statement, and evidence
                     indicates that at least one other source with prior experience at Rocky Flats could
                     have competed for the work.

                 SA subcontract for an intrusion detection system to protect Rocky Flats' storage site
                  for special nuclear materials was awarded for $4.4 million on a sole-source basis
                  without requesting bids. The justification for the sole-source award cited an
                                                                                              how
                  urgency to install the system. However, the justification did not explain
                  soliciting bids from other potential subcontractors would delay the installation. In
                  fact, according to Kaiser-Hill's own statistics, the average time required to
                                                                                                 the
                  competitively award solicitations exceeding $1 million is only 60 days from
                  receipt of the purchase requisition to award.

                 *A purchase order valued at $115,000 was awarded for computer equipment after
                   soliciting bids from only two suppliers-one from a computer manufacturer in
                   California and one from the manufacturer's local distributor-without soliciting
                   bids from other computer manuCacturers or vendors. The manufacturer had an
                   agreement with its distributor not to sell computers for less than the distributor's
                   price, and the procurement agent was aware of the agreement. Thus, the distributor
                   was virtually guaranteed to receive the award from the outset.

                *    A. procurement agent awarded a $528,000 purchase order for metal waste
                     containers without obtaining a current quote from one of two potential suppliers.
                     Instead, the agent used a 9-month-old quote from one vendor and obtained a current
                     quote from the other vendor, who ultimately received the purchase order.
                     Therefore, only one valid quote was used in the source selection process.

             These conditions occurred because Kaiser-Hill personnel did not always follow approved
                                                                                                 (Field
             policies and procedures, and neither Kaiser-Hill nor the Rocky Flats Field Office
             Office) established internal controls to ensure employee compliance.  As  a result,  the
                                                                                   on the  Department's
             Department had no assurance that Kaiser-Hill obtained the best value
             behalf, and potential savings from competition were lost.

              SCOPE AND METHODOLOGY

              The audit was performed at Rocky Flats between April and August 2002. The audit
              covered subcontracts and purchase orders that were active as of August 9, 2002.

              To accomplish the audit objective, we reviewed Kaiser-Hill's procurement performance
              objectives and measures in recent Balanced Scorecard Program self-assessment reports,
              evaluated samples of subcontracts and purchase orders, and discussed procurement
              activities with Field Office and Kaiser-Hill personnel.

              The audit was performed in accordance with generally accepted Government auditing
              standards for performance audits and included tests of internal controls and compliance


                                                       2
S10/30/02   WED 09:58 FAX 423     241 3897            OIG                            ->-   HQ                [~004




                                                                                              In addition,
            with laws and regulations to the extent necessary to satisfy the audit objective.
                                                                                        and Results Act
            we reviewed Kaiser-Hill's compliance with the Government Performance
                                                                     necessarily have disclosed all
            of 1993. Because our review was limited, it would not
                                                                                          Further, we
            internal control deficiencies that may have existed at the time of our audit.
                                                                                   Kaiser-Hill's
            conducted a reliability assessment of computer-processed data from
                                                                          that the data was reliable.
            accounting software and purchasing system, and concluded
                                                                                  3, 2002. Since no
            We discussed the audit results with Field Office personnel on October
                                                                                  response is not
            formal recommendations are being made in this letter report, a formal
                                                                            suggest that you monitor
            required. However, to maximize procurement competition, we
            Kaiser-Hill's competition through the Balanced Scorecard Program and take appropriate
                                                                                   policies and
            action to ensure that Kaiser-Hill complies with approved procurement
                                                                                the audit.
             procedures. We appreciate the cooperation of your staff throughout




                                                       cnrry L   rendlinger, Director
                                                      Environmental Audits Division
                                                      Office of Inspector General

             cc: Assistant Secretary for Environmental Management
                 Team Leader, Audit Liaison Team, ME-2
                 Audit Liaison, Rocky Flats Field Office




                                                        3
10/30/02   WED 09:58 FAX 423 241 3897                OIG                           --   > HQ              2005



                                                           IG Report No.         OAS-L-03-01    .



                                      CUSTOMER RESPONSE FORM

            The Office of Inspector General has a continuing interest in improving
                                                                                        as possible to
            the usefulness of its products. We wish to make our reports as responsive
                                                                                            thoughts
            our customers' requirements, and therefore ask that you consider sharing your
                                                                                 to enhance  the
            with us. On the back of this form, you may suggest improvements
                                                                                                   they
            effectiveness of future reports. Please include answers to the following questions if
            are applicable to you:

             1.        What additional background information about the selection,
                                                                                              been
                       scheduling, scope, or procedures of the audit or inspection would have
                       helpful to the reader in understanding this report?

             2.        What additional information related to findings and recommenda-
                       tions could have been included in this report to assist management in
                       implementing corrective actions?

             3.        What format, stylistic, or organizational changes might have made
                       this report's overall message more clear to the reader'?

              4.       What additional actions could the Office of Inspector General have
                       taken on the issues discussed in this report which would have been helpful?

              Please include your name and telephone number so that we may contact you
              should we have any questions about your comments.


              Name                                               Date

              Telephone                                          Organization


               When you have completed this form, you may telfax it to the Office of
               Inspector General at (202) 586-0948, or you may mail it to:

                                       Office of Inspector General (TG-1)
                                       Department of Energy
                                       Washington, D.C. 20585
                                       ATTN: Customer Relations

                  If you wish to discuss this report or your comments with a staff member
                  of the Office of Inspector General, please contact Wilma Slaughter at (202) 586- 924.
 10/30/02            WED 09:59 FAX 423 241 3897                OIG                                -   HQ               I006




DOE F 1325.8
(08-93)                                                                                    Department of Energy
United States Government


memorandum
        DATE:         October 29, 2002

   REPLY TO
    ATTN OF:          IG-36 (A02DN028)
                                                                                         Flats Environmental
     SUBJECT:         Final Report Package for Letter Report on Procurement at the Rocky
                      Technology Site

               To:    Director, Planning and Administration
                                                                                   audit. The pertinent details are:
                      Attached is the required final report package on the subject

                       1. Staff days:         Programmed            250        Actual      189

                                              Programmed             238       Actual       190
                       2. Elapsed days:

                       3. Names of OIG audit staff:

                          Assistant Director: Fred Pieper
                          Team Leader: Mark Mickelsen
                          Auditor-in-Charge: Richard Terry
                          Audit Staff: Susy Marin
                                       Christine Nehls
                                                                                    was coordinated with
                        4. Coordination with invcstigations and Inspections: Report
                                                                                                    on
                           Michael T. Matkowski, Investigations, and Henry C. Minner, Inspections, or
                           October 28, 2002. This report will not impact any ongoing investigations
                           inspections.

                        5. Matters to be brought to attention of tfe IG or AIGAS: None.



                                                         h-Y   jircndlinger,    Director
                                                        Envi nnmental Audits Division
                                                        Office of Inspector General

                         Attachments:
                         1. Final Report (3)
                         2. Monetary Impact Report
                         3. Audit Project Summary Report
                         4. Transmittal. Memorandum
10/30/02      WED 09:59 FAX 423 241 3897                                     OIG                                        *
                                                                                                                        --    HQ                             00.008




                                                    MONETARY TMPACT REPORT                                   OAS-L-03-01

                                  Pronrem-ent at the Rocky           Flats !nvironmcntS              Technologv Sit
      1. Title of Audit:

      2. Region/Office:           Ernvironi"ent          Au      Division/Denver Audit Gr.Iau

      3. EIGPTS No.:              A.Q02DN.Q2.

      4. Type of Audit:
                Financiall:        ___Pcrformance:                                                            X
                                                                                         Economy and Efficincy                      X
                   Financial StaLcmenl              __
                   Financial Rclated                                                     Program Results
                Other (specify type):
       5.
                                                                                                                                         MGT.,      rOTENTIAL
                                                                                                       QUFS-OND COSTS                   OSITION       SUDOT
                    FINDING                                     USoD
                                                         BeTTF~.R

                                                                 Reccurrin    "

                                                          CD)       (C)            (F)          (G)            (II)           (I)         (J)          (K)
       (A)                (R)              (C)                      N.            To         Oucsdoned      Uupe             Tl         CCncur        Y'Yc
                                            n            Amont                                                                          N=N-U ond     N-No
                                           Tirlic         Per       Yrs.       Anount            Portion      Portion


                Competition




        TOTAL.S--AL. FINDINCS                                                                                                0___

                                                                                        could not quantify
           6. Remarks: No specific dollar amount is estimated for this audit because we
                                                                               and purchase orders we
                       the potential savings from competing the subcontracts
                       found questionable.

            7. Contractor:        N/A                                        10. Approvals'.:                                            2/ fa/
                                    N/A                                                   DD & Date/       A--
            8. Contract No.:
            9. Task Order No.:           N/A                                              OAS Technical Advisot
                                                                                          Date
   10/30/02           WED 09:59 FAX 423 241 3897                              OIG                                 -*-        HQ                  00oo

                                                   Office of the Inspector General (OIG)
                                                 Audit Project Office Summary (APS)
                                                                                                                                        Page 1

Report run on;                      October 29, 2002 1:59 PM


   Auditt#:-A02DN028               Oft: DNA             Title: PROCUREMENT ROCKY FLATS ENVIRONMENT TECH SITE

   |T                                                          **-* Milestones ***_
                                           ---     --S--------         lanned  ----------------                              Actual
                                                       Profile     End of survey      Revised

                                                                            22-APR-02         22-APR-02            22-APR-02
    Entrance Conference:                           15-APR-02
                                                   13-JUN-02                17-JUL-02          17-JUL-02            17-JUL-02
    Survey Completed,
                                                                                               16-AUG-02            16-AUG-02
    Field Work Complete:
                                                                                               11-OCT-02
    Draft Report Issued:                                                                          O-02
                                                                                               18-NOV-02
    Exit Conference:                                                                           16-DEC-02                29-OCT-02       (R   )
                                                   20-DEC-02                                   16          2            22
    Completed with Report:
                                                             249                                         238                      190
    ----.---- Elapsed Days
                                                                                                                                  189
    ----------  Staff Days;                                  250                     0

    Date suspended;                                                       Date Terminated:

    Date Reactivated:                                                     Date Cancelled:
                                                    0    (              ) Report Number;       OAS-L-03-01
    paysSuspended(Cur/Tot):
                             AUDIT OF PROCUREMENT AT THE ROCKY FLATS                       ENVIRONMENTAL TECHNOLOGY SITE
    Rpt Title:

                     S,***                                     Audit Codes and Personnel ***


        Aud Type: EAE          ECONOMY & EFFICIENCY
                                                                                    AD:            342   MICKELSEN
        Category: DWB          DEFENSE WASTE MGMT.
                               KAISER-HILL COMPANY                                  AIC:           447   TERRY
        DOE-Org:  RFA
                                                                                    HDQ-Mon: 390         HANCOCK
        Maj   Iss:     009     CONTRACT/GRANT ADMIN
        Site;          MSA MULTI-SITE AUDIT                                         ARM:           496   PIEPER

                         -          -***                              Task Information ****

              Task No:
              Task Order Dt:                                              CO Tech. Rep:

              Orig Auth Hrs:                                              Orig Auth Costs:
              Current Auth:                                               Current Auth Cost:
               Tot Actl IPR Hr:                                           Tot Actl Cost;


                                                                   S***    Time Charges     w***


                             Emp/COnt Name                   Numdays            Last Date

                              HALPIN, D                            .9           05-OCT-02
                              MICKELSEN, M                     17.1             19-OCT-02
                              MARIN, S                         46.9             07-SEP-02

                              NEHLS, C                         55.8              24-AUG-02

                              TERRY, R                         67.9              19-OCT-02

                               Total:                         198.|
  10/30/02       WED 10:00 FAX 423 241 3897            OIG                             44*   HQ            ~010

                                   Office of the Inspector General        (OIG)

                                Audit Project Office Summary (APS)
                                                                                                  Page 3

Report run on:              October 29, 2002 1:59 PM


                                              Audit History                       _j

                 A02DN028                History Date:        29-OCT-02
  Audit No:

  History Text:
  PB/   ENTERED COMPLETED WITH REPORT DATE.




 I ._ . ..   .                                                                                         . ..
             AUDIT DATABASE INFORMATION SHEET

 1. Project No.:       A02DN028

2.   Title of Audit:     Audit of Procurement at the Rocky Flats Environmental Technology Site

3.   Report No./Date        OAS-L-03-01

4.   Management Challenge Area:        Contract Administration

5.   Presidential Mgmt Initiative:     Competitive Sourcing

6.   Secretary Priority/Initiative:       Audit initiated based on Hotline Complaint

7.   Program Code:         MPA

8.   Location/Sites:        Rocky Flats Environmental Technology Site

9.   Finding Summary:
     Of the 52 procurments we reviewed, 21 with a total value of about $47 million were not competed
     to the maximum extent practicable. Specifically, 17 were awarded on a sole-source basis even
     though other vendors were capable of performing the work, and 4 were competitively awarded,
     but with restricted competition.


10. Keywords: (include as many as you like)

      Procurement                                   Competition
      Rocky Flats                                   Sole-Source
    10/30/02         WED 09:59 FAX 423 241 3897               OIG                              -.
                                                                                               ~-      HQ               1o007




DOE F 1325.8
   1
(08-9)                                                                                  Department of Energy
United States Government


 memorandum
          DATE;      'catohe'r;   29!, 2002

    REPLY TO
         TTN OF:     IG-36 (A02DN028)
                                                                     Environmental Technology Site
         SUBJECT:    Letter Report on Procurement at the Rocky Flats

               TO:   Team Leader, Audit Liaison Team (ME-2)

                                                                                  are being made and no
                      Attached is the subject letter report. No recommendations
                                                                          Management was briefed on our observation
                      Management Decision is required for this report.
                                                                        to the maximum extent practicable. We
                      that numerous procurements were not competed
                                                                       Office, monitor the site closure contractor's
                      suggested that the Manager, Rocky Ftats Field                                        and take
                                                                epartm      Balanced Scorecrd Pr
                      procurement comption through the                 complies with approved    procurement policies
                      appropriate action to ensure that the contractor
                      and procedures.

                      We appreciate your cooperation.



                                                                                    ~ger, Direct
                                                                        SEnvrnmcrtal Audits Division
                                                                Office of Inspector General

                       Attachment

                       cc: Manager, Rocky Flats Field Office
                           Audit Liaison, Rocky Flats Field Office
